AUDIT OF THE BUREAU OF JUSTICE ASSISTANCE 

  AWARD TO THE CLARKE COUNTY, VIRGINIA 

          SHERIFF'S DEPARTMENT 



          u.s.  Department of Justice
         Office of the Inspector General
                  Audit Division

          Audit Report GR-30-13-001 

                 March 2013 

This Page Left Intentionally Blank.
  AUDIT OF THE BUREAU OF JUSTICE ASSISTANCE

    AWARD TO THE CLARKE COUNTY, VIRGINIA

            SHERIFF’S DEPARTMENT


                            EXECUTIVE SUMMARY

       The Department of Justice (DOJ) Office of the Inspector General (OIG)
completed an audit of grant number 2010-DD-BX-0690, covering grant
activity from October 1, 2010 through October 11, 2012, in the amount of
$1,000,000 awarded to the Clarke County, Virginia Sheriff’s Department
(Sheriff’s Department). The Sheriff’s Department is the fiscal agent for the
Northwest Virginia Regional Gang Task Force (Task Force), which is
comprised of a detective from Clarke County, Page County, Shenandoah
County, Frederick County, Winchester City, and Warren County. Created in
2004, the Task Force seeks to counter gang-related violence and property
crimes in Northwest Virginia.

      We conducted this audit to determine whether costs claimed under the
grant were allowable, reasonable, and in accordance with applicable laws,
regulations, guidelines, and the terms and conditions of the award.

       Our audit found that the transactions were, in general, properly
authorized, classified, supported, and charged to the grant. However, the
Sheriff’s Department could improve its internal controls to ensure
compliance with DOJ grant requirements. During the audit, we found the
Sheriff’s Department did not follow their own procedures for sole source
procurements, and did not have sufficient support for payroll and fringe
benefits allocated to the grant by its subgrantees. Consequently, we have
questioned unsupported subgrantee payroll and fringe benefits allocations
totaling $30,940. 1

      Our report contains 2 recommendations. We discussed the results of
our audit with Sheriff’s Department officials and have included their
comments in the report.




      1
          Questioned costs are expenditures that do not comply with legal, regulatory or
contractual requirements, or are not supported by adequate documentation at the time of
the audit, or are unnecessary or unreasonable. Questioned costs may be remedied by
offset, waiver, recovery of funds, or the provision of supporting documentation.
                                    Table of Contents

                                                                                               Page

INTRODUCTION ................................................................................ 1

  Audit Approach ..................................................................................1

FINDINGS AND RECOMMENDATIONS................................................ 3

  Reporting ..........................................................................................3

    Federal Financial Reports..................................................................4

    Progress Reports .............................................................................4

  Drawdowns .......................................................................................5

  Budget Management and Control .........................................................6

  Grant Expenditures ............................................................................6

    Personnel Costs...............................................................................7

    Other Direct Costs ...........................................................................8

  Contract Management ...................................................................... 10

  Recommendations............................................................................ 10

SCHEDULE OF DOLLAR-RELATED FINDINGS ................................... 11

APPENDIX I - OBJECTIVES, SCOPE, AND METHODOLOGY ............... 12

APPENDIX II – CLARKE COUNTY, VIRGINIA SHERIFF’S OFFICE

    RESPONSE TO THE DRAFT AUDIT REPORT............................ 124

APPENDIX III – OFFICE OF JUSTICE PROGRAMS RESPONSE TO THE

    DRAFT AUDIT REPORT.......................................................... 120

APPENDIX IV – OFFICE OF THE INSPECTOR GENERAL ANALYSIS

    AND SUMMARY OF ACTIONS NECESSARY TO CLOSE THE 

    REPORT .................................................................................. 12

                              INTRODUCTION

       The Office of the Inspector General, Audit Division, has completed an
audit of grant 2010-DD-BX-0690, covering grant activity from October 1,
2010 through October 11, 2012, in the amount of $1,000,000 awarded to
the Clarke County, Virginia Sheriff’s Department (Sheriff’s Department) from
the Bureau of Justice Assistance (BJA). The Sherriff’s Department is the
fiscal agent for the Northwest Virginia Regional Gang Task Force (Task
Force), which is comprised of a detective from Clarke County, Page County,
Shenandoah County, Frederick County, Winchester City, and Warren County.

      Created in 2004, the Task Force seeks to counter gang-related
violence and property crimes in Northwest Virginia. The Task Force’s
objectives are to 1) utilize resources to identify, apprehend, and prosecute
gang offenders; 2) work closely with federal agencies to identify, investigate,
and prosecute gang members responsible for violent crimes; 3) gather and
disseminate intelligence information through crime reporting databases;
4) continue to conduct presentations developed for schools, hospitals, law
enforcement, and civil organizations to promote gang awareness; and
5) continue to enroll Task Force investigators in advanced gang-enforcement
seminars and specialized training.

Audit Approach

      We conducted this audit to determine whether costs claimed under the
grant are allowable, reasonable, and in accordance with applicable laws,
regulations, guidelines, and terms and conditions of the award. To
accomplish this objective, we tested compliance with what we considered the
most important conditions of the grant. Unless otherwise stated in the
report, we used the Office of Justice Programs (OJP) Financial Guide
(Financial Guide) to assess the Sherriff’s Department’s performance and
compliance with grant requirements. 2




       2
          The Financial Guide serves as a reference manual that provides guidance to award
recipients on the fiduciary responsibility to safeguard award funds and to ensure funds are
used appropriately. OJP requires award recipients to abide by the requirements in the
Financial Guide.
      Specifically, we tested what we believed to be critical award
requirements necessary to meet the objectives of the audit, including:

   •	 Reporting to determine if the required federal financial reports and
      progress reports were submitted timely and accurately reflect grant
      activity;

   •	 Drawdowns to determine whether grant drawdowns were adequately
      supported and if the grantee was managing receipts in accordance
      with federal requirements;

   •	 Budget Management and Control to ensure that the Sheriff’s

      Department appropriately tracked costs to approved budget

      categories;


   •	 Grant Expenditures to determine the accuracy and allowability of
      costs charged to the grant; and

   •	 Contract Management to ensure compliance with overall financial
      management requirements for procurements.

      The award did not include program income, matching funds, or indirect
costs. The results of our analysis are discussed in detail in the Findings and
Recommendations section of the report. Appendix I contains additional
information on our objective, scope, and methodology.




                                      2
              FINDINGS AND RECOMMENDATIONS

           COMPLIANCE WITH ESSENTIAL AWARD REQUIREMENTS

       Our audit found that the transactions were, in general, properly
       authorized, classified, supported, and charged to the grant.
       However, the Sheriff’s Department could improve its internal
       controls to ensure compliance with DOJ grant requirements.
       During the audit, we found the Sheriff’s Department did not
       follow their own procedures for sole source procurements and
       did not have sufficient support for payroll and fringe benefits
       allocated to the grant by its subgrantees. Consequently, we
       have questioned $30,940 of unsupported subgrantee payroll and
       fringe benefits allocations.

Reporting

       The special conditions of the grant require that the Sheriff’s
Department comply with administrative and financial requirements outlined
in the Financial Guide and the requirements of the Office of Management and
Budget (OMB) Circular A-133, Audits of States, Local Governments and Non-
Profit Organizations (OMB Circular A-133). 3 The Financial Guide requires
that grantees submit both financial and program progress reports to inform
awarding agencies on the status of each award. Federal Financial Reports
(FFRs) should detail the actual expenditures incurred for each quarterly
reporting period, while progress reports should be submitted semiannually
and describe the performance activities and achievements of the project
supported by each award.

       Because accurate and timely FFRs and progress reports are necessary
to ensure that DOJ awarding agencies can effectively monitor award
activities and expenditures, we reviewed the Sheriff’s Department’s reports
for grant number 2010-DD-BX-0690. As detailed in the following sections,
the Sheriff’s Department did not submit all required FFRs and progress
reports in a timely manner. Additionally, while we were able to verify that
progress reports accurately reflected actual program accomplishments, FFRs
did not accurately report grant expenditure activity due to small adjustments
made after the FFRs were submitted.


       3
          OMB Circular A-133 requires non-federal entities that expend at least $500,000 a
year in federal awards to have a single audit conducted of its financial statements. The
purpose of the single audit is to determine whether the financial statements and schedule of
expenditures of federal awards are presented fairly in all material respects and in conformity
with generally accepted accounting principles.


                                              3
Federal Financial Reports

      DOJ awarding agencies monitor the financial performance of each
grant via FFRs. According to the Financial Guide, FFRs should be submitted
within 30 days of the end of each quarterly reporting period. Even when
there have been no outlays of grant funds, a report containing zeroes must
be submitted. Awarding agencies may withhold funds or future awards if
reports are submitted late, or not at all.

      To verify the timeliness of the FFRs, we tested the last four reports
submitted for the audited period, which included grant activity through the
grantee’s accrual general ledger as of June 30, 2012. We compared the
submission date of each report to the date each report was due, and found
that the FFR for the period October 1, 2011 through December 31, 2011 was
submitted one day late. Consequently, the grantor withheld the grantee’s
funds. However, the grantee was able to rectify the situation within a day.

       The Financial Guide indicates that a grantee’s accounting system for
reporting must support all amounts reported on the FFRs. To verify the
accuracy of the FFRs, we discussed the FFR processes with the responsible
Clarke County accountant and the Task Force’s analyst, compared the
amounts reported on the last four FFRs to expenditures recorded in the
grant’s accounting records through June 30, 2012, and reviewed the
grantee’s adjustments. Based on our testing, we have concluded that the
FFRs do not reconcile to the financial records. However, the small
differences noted are related to subsequent adjustments the grantee has
accounted for reasonably.

Progress Reports

      While FFRs report grant financial activity, progress reports describe the
project status and accomplishments of the DOJ grant supported program or
project. Progress reports should also describe the status of the project and
compare actual accomplishments to anticipated grant objectives. According
to the Financial Guide, grantees are required to submit progress reports
every six months during the performance period of the award. Progress
reports are due 30 days after the end of each semi-annual reporting period,
June 30 and December 31. DOJ awarding agencies may withhold grant
funds if grantees fail to submit accurate progress reports on time.

      To assess whether the Sheriff’s Department submitted progress
reports on time, we reviewed the last four progress reports and compared
the submission dates to the due date for each progress report. Two of the



                                       4
four progress reports tested were not submitted in a timely manner. 4 Since,
the last two progress reports were submitted on time and the late progress
reports were remedied quickly, we consider the late progress reports to be
an isolated occurrence.

      To determine if the Sheriff’s Department’s progress reports contained
achievements related to its program goals and objectives, we analyzed and
compared the progress reports for the periods July 2011 through December
2011 and January 2012 through June 2012 to the program objectives.
Based on our review, the Sheriff’s Department was reporting achievements
related to its program goals and objectives to BJA.

      To assess the accuracy of the progress reports, we selected a sample
of seven reported achievements for the periods July 2011 through December
2011 and January 2012 through June 2012 and compared them to source
documentation. From our review, we determined the progress reports
accurately reflected program goals and achievements as set forth in the
grant documentation.

Drawdowns

       To obtain DOJ award money, award recipients must electronically
request grant funds via drawdowns. The Financial Guide states that award
recipients should only request federal award funds when they incur or
anticipate project costs. Therefore, recipients should time their requests for
award funds to ensure they will have only the minimum federal cash on
hand required to pay actual or anticipated costs within 10 days.

      According to the Sheriff’s Department’s grant management personnel,
drawdown requests are based on reimbursements of expenses for salaries,
fringe benefits, contractor costs, travel, equipment, and other costs. 5 The
Sheriff’s Department confirmed that their policy is to request a drawdown
each quarter for grantee and subgrantee expenses. To ensure that the
Sheriff’s Department requested funds properly and kept minimum cash on
hand, we analyzed its drawdowns to date and compared the overall amount
to grant’s general ledger. Overall, we found that the amounts drawn down
did not exceed the expenditures in the accounting records.


       4
         Progress report for the period October 2010 through December 2010 was
submitted 2 days late and progress report January 2011 through June 2011 was submitted
17 days late. The late reports caused a withholding of funds.
       5
        Other costs include lease payments for a task force office building,
telecommunication services, and conference registration.


                                             5
Budget Management and Control

       Grantees should expend funds according to the budget approved by
the awarding agency and included in the final award. Approved award
budgets document how much the recipient is authorized to spend in high-
level budget categories, such as personnel, supplies, and contractors. The
Financial Guide also states that award recipients may request a modification
to approved award budgets to reallocate amounts between various budget
categories within the same award. No prior approval is required if the
reallocations between budget categories do not exceed 10 percent of the
total award amount. We compared the actual amounts spent in each budget
category to the budgeted amounts in the same categories. For award 2010­
DD-BX-0690, the Sheriff’s Department adhered to the Financial Guide
requirements.

Grant Expenditures

       According to 2 C.F.R. § 225 Cost Principles for State, Local, and Indian
Tribal Governments, costs are allowable if they are reasonable, consistently
applied, adequately documented, comply with policies and procedures, and
conform to any limitations or exclusions specified in applicable criteria. As of
June 30, 2012, the Sheriff’s Department’s general ledger reported $397,378
in project costs associated with grant 2010-DD-BX-0690. We tested
$187,679 (47 percent) in expenses charged to the grant to ensure they were
allowable, and identified $30,940 in questioned costs. 6 Exhibit 1 displays by
type of sampled cost, the total value of the expenditures in each category,
and the amount of questioned costs our testing identified.




      6
          Questioned costs are expenditures that do not comply with legal, regulatory or
contractual requirements, or are not supported by adequate documentation at the time of
the audit, or are unnecessary or unreasonable. Questioned costs may be remedied by
offset, waiver, recovery of funds, or the provision of supporting documentation.


                                            6
                        Exhibit 1: Summary of Review of

                               Grant Expenditures


                           Total General             Total Costs             Questioned
   Type of Cost           Ledger Costs ($)           Tested ($)               Costs ($)
Personnel Costs                         62,336                 7,241                     0
Fringe Costs                            23,541                 2,630                     0
Subgrantee Costs                       276,668               152,191                30,940
Equipment                               14,430                 6,142                     0
Other Direct Costs                      20,403                19,475                     0
              TOTAL                 $ 397,378              $187,679              $ 30,940
Source: Grant’s general ledger and OIG analysis of total questioned costs.

Personnel Costs

       The personnel costs of the grant include the salary and fringe benefits
of the one task force detective representing the grant’s fiscal agent, the
Sheriff’s Department of Clarke County, Virginia. The salary and fringe
benefits for the other five detectives participating in the task force are billed
to the fiscal agent by their respective counties and included in the account
entitled Subgrantee Costs.

      We interviewed the payroll accountant responsible for the grant’s
payroll. The payroll for the Sheriff’s Department, and the grant, is
processed through the Clarke County accounting department. County
payroll is processed once a month and each month’s payment is made on
the last day of the month. The assistant deputy sheriff provides the Clarke
County payroll accountant with the detective’s monthly timesheet and a list
of any changes to the detective’s regular pay, such as overtime. Since each
of the detectives is budgeted as 100 percent dedicated to the task force, all
of the Clarke County detective’s salary and fringe benefits is automatically
allocated to the grant.

       Salaries

      To determine if the grantee’s allocation of labor was accurate, we
selected two pay periods (March 2011 and June 2012) to test. We
recalculated the Clarke County detective’s salary based on the county’s list
of general government salaries and compared our salary calculation to the
salary recorded in the county’s payroll register and general ledger. Based on
the tests performed, we determined that the Clarke County detective’s
salary is properly and accurately charged to the grant.




                                             7
      Fringe Benefits

      When Clarke County employees work on grant projects, Clarke County
incurs costs associated with providing its employees fringe benefits such as
payroll taxes, health insurance, and pension plan contributions. To allocate
the cost of fringe benefits to the DOJ grant, OJP approved an amount the
grantee can charge the grant for the award period. We reviewed the fringe
benefits amount allowed in the approved budget and calculated a monthly
amount allowed. We compared the monthly amount allowed to the amounts
charged for the months tested, and determined that a reasonable amount of
fringe benefits costs were charged to the grant for the Clarke County
detective.

Other Direct Costs

      We selected a judgmental sample of 15 transactions from award 2010­
DD-BX-0690 totaling $177,808 to determine if the charges were allowable
and allocable to the award. As shown in Exhibit 2, we questioned $30,940
of subgrantee costs.

          Exhibit 2: Summary of Questioned Subgrantee Costs

             General Ledger
     Account                         Amount      Questioned
    Description       Date             ($)       Amount ($)              Note
 Salary and Fringe
                       07/31/2012       14,412          14,412   Unsupported allocation
 Benefits
 Salary and Fringe
                       02/15/2012       10,859          10,859   Unsupported allocation
 Benefits
 Salary and Fringe
                       02/15/2012        5,669           5,669   Unsupported allocation
 Benefits
                           TOTAL     $30,940          $30,940
 Source: OIG analysis of the grant’s general ledger and supporting documentation.

      Unsupported Allocation of Salaries and Fringe Benefits

       The Sheriff’s Department of Clarke County is the fiscal agent for the
Task Force grant, and there are five detectives from five neighboring
counties participating in the Task Force. Each of the neighboring counties
submits a reimbursement request to the Sheriff’s Department for the salary
and fringe benefits costs of each county’s participating detective. These
participating counties are considered subgrantees.

       As noted in the grant’s OJP approved budget narrative, the
participating Task Force detectives are 100 percent dedicated to the Task


                                           8
Force, and all of their salary and fringe benefits costs should be allocated to
the grant. During our transaction testing, we noted four transactions in
which the participating detective fulfilled responsibilities in addition to his
Task Force responsibilities. For instance, with one of the transactions, the
detective spent a portion of his time working for his respective county’s
SWAT Team.

       According to the Financial Guide, grant recipients who work on
multiple programs or cost activities must reasonably allocate their labor
costs to each activity based on time and effort reports, more commonly
referred to as timesheets. These timesheets must reflect an after-the-fact
distribution of the actual activity of the employee, account for the total
activity for which the employee is compensated, be prepared to coincide
with one or more pay periods, and be signed by the employee and approved
by a supervisor with firsthand knowledge of the work performed.

      In reviewing the supporting documentation for the transactions in
Exhibit 2, we noted that none of these transactions was supported by
adequate timesheets showing time spent working on multiple projects during
the pay periods tested. Instead, the subgrantees provided supporting
timecards showing total hours worked each day of the pay periods.
Consequently, we could not determine the allocation rationale for the three
transactions in Exhibit 2, and we question the total $30,940 of salaries and
fringe benefits costs. We recommend OJP remedy $30,940 in unsupported
allocations of salaries and fringe benefits costs.

      Monitoring Subgrantees

      In testing the sample of 15 transactions, we noted that the grantee
does not monitor or review the requests for reimbursement from the
subgrantees. Instead, the grantee accumulates the supporting documents
accompanying the reimbursement request and approves the amount to pay
the subgrantee. There is no determination whether the costs paid are
accurately calculated, complete, or in conjunction with the approved grant
budget.

      We discussed with the grantee their requirements to monitor
subgrantees’ reimbursement requests to ensure the requests are accurately
calculated, complete, and in conjunction with the approved grant budget. In
response to our discussions, the grantee implemented a new process that
each reimbursement request has a coversheet that requires a reviewer’s
signature attesting that the reimbursement was reviewed prior to payment.
Since the grantee has addressed our concerns, we make no further
recommendation.


                                       9
Contract Management

      According to grant officials, the Sheriff’s Department follows the Clarke
County Department of Joint Administrative Services Procurement Policies
and Procedures Revised November 1, 2010 in accounting for grant
transactions.

       During our testing of a sample of grant transactions, we noted the
purchase of a budget approved forensic extraction device, known as a
CelleBrite machine. In discussion with the grantee, we determined that this
machine was purchased under sole source authority. According to the
Clarke County purchasing policies, an account manager who has determined
that only one source exists for a specific good or service with an estimated
dollar value of greater than $800 must forward a signed statement to that
effect, supported by factual data, to a purchasing agent with the purchase
requisition. After reviewing the factual information, the purchasing agent
will approve or disapprove the purchase as a sole source procurement.

      We were provided with the supporting documentation for the CelleBrite
purchase; however, we were not provided with documentation that the
account manager determined that only one source existed for the forensic
extraction device. Therefore, we recommend that OJP ensure the grantee
follow its procurement policies by documenting the rationale for sole source
procurements.


Recommendations

We recommend that OJP:

1. Remedy the $30,940 in unsupported allocations of salaries and fringe
   benefits costs.

2. Ensure the grantee follows its procurement policies and include
   documentation of factual data that supports an account manager’s
   determination that a sole source procurement is justified.




                                      10
          SCHEDULE OF DOLLAR-RELATED FINDINGS




QUESTIONED COSTS: 7                                             AMOUNT PAGE
                                                                  ($)
Unsupported Subgrantee Costs

Salaries and Fringe Benefits Costs                              30,940           8

    Total Unsupported Costs                                   $30,940

Total Questioned Costs                                        $30,940




      7
          Questioned costs are expenditures that do not comply with legal, regulatory or
contractual requirements, or are not supported by adequate documentation at the time of
the audit, or are unnecessary or unreasonable. Questioned costs may be remedied by
offset, waiver, recovery of funds, or the provision of supporting documentation.


                                            11
                                                        APPENDIX I

        OBJECTIVES, SCOPE, AND METHODOLOGY

      The purpose of this audit was to determine whether reimbursements
claimed for costs under the grant reviewed were allowable, supported, and
in accordance with applicable laws, regulations, guidelines, and terms and
conditions of the grant. The objective of our audit was to review
performance in the following areas: (1) federal financial reports and
progress reports, (2) drawdowns, (3) budget management and control,
(4) expenditures, and (5) contract management.

      We conducted this audit in accordance with generally accepted
government auditing standards. Those standards require that we plan and
perform the audit to obtain sufficient, appropriate evidence to provide a
reasonable basis for our findings and conclusions based on our audit
objectives. We believe that the evidence obtained provides a reasonable
basis for our findings and conclusions based on our audit objectives.

      Our audit concentrated on grant number 2010-DD-BX-0690 in the
amount of $1,000,000 to the Clarke County, Virginia Sheriff’s Department
(Sheriff’s Department) awarded by the Bureau of Justice Assistance. The
Sherriff’s Department uses these funds to support the Northwest Virginia
Regional Gang Task Force (Task Force). Created in 2004, the Task Force
seeks to counter gang-related violence and property crimes in the Northwest
Virginia region.

      We tested compliance with what we considered to be the most
important conditions of the award. Unless otherwise stated in our report,
the criteria we audit against are contained in the OJP Financial Guide and the
award documents.

      In conducting our audit, we performed sample testing in the following
areas:

   •	 Drawdowns. We analyzed the Sheriff’s Department’s overall
      drawdowns of $396,611 for the DOJ award from October 1, 2010
      through October 11, 2012. The overall drawdowns did not exceed the
      total expenditures per the grant’s general ledger.




                                      12
   •	 Payroll. We interviewed the Clarke County payroll accountant
      regarding timekeeping and the charging of personnel costs to the
      grant. To determine whether the grant’s labor costs were supported
      and allowed, we judgmentally selected two pay periods (March 2011
      and June 2012) to test. We recalculated salary figures based on the
      county’s list of general government salaries and compared the salary
      recalculations with Clarke County’s payroll register and the grant’s
      general ledger. We reviewed the fringe benefits amount allowed in the
      approved budget and compared the monthly amount allowed to the
      amounts charged for the months tested and determined that a
      reasonable amount of fringe benefits costs were charged to the grant.

  •	   Transactions. To test the grant’s transactions for authorizations,
       approvals, and sufficient supporting documentation, we judgmentally
       selected 15 non-payroll transactions totaling $177,808. We analyzed
       the transactions to determine if the transactions were properly
       authorized, classified, recorded, supported, and charged to the grant.

  •	   Contract Management. We interviewed grantee officials regarding
       the analysis, negotiation, and available documentation maintained in
       connection with grant procurements. Based on our analysis of an
       equipment purchase, we determined whether the grantee was
       following procurement policies for sole source procurements.

      In addition, we reviewed the timeliness and accuracy of financial
status and progress reports and reviewed the internal controls of the
financial management system.




                                      13
                                                                    APPENDIX II

CLARKE COUNTY, VIRGINIA SHERIFF’S OFFICE RESPONSE
              TO THE DRAFT REPORT


      February 19, 2013


      Mr. Troy M. Meyer
      Regional Audit Manager
      Washington Regional Audit Office
      Office of the Inspector General
      U. S. Department of Justice
      1300 North 17th Street, Suite 3400
      Arlington, VA 22209


      Dear Mr. Meyer:

      I have reviewed your draft audit report, dated February 5, 2013. I do not concur
      with the recommendations enumerated on page 10 of the draft report.

      Recommendation 1 requires a remedy for unsupported allocation of salaries and
      fringe benefits. The recommended remedy has a cost of $30,940.

      Clarke County, the fiscal agent for this grant, manages the payments for several
      members of our regional gang task force. The particular allocations questioned in
      Recommendation 1 involve payments to a sub-grantee, Shenandoah County.
      During the audit process, Clarke County learned that we were perhaps not
      utilizing best practices in tracking time sheets for the reimbursement of sub-
      grantee expenditures. This process has been refined, and documentation is now
      in-line with these practices.

      The sub-grantee, while now complying with the new reporting procedures,
      contends that the allocation in question is appropriate, necessary, and fulfills the
      requirements stated in the grant. I have attached a letter from the sub-grantee, who
      retains all of the necessary documentation in addition to Clarke County. This
      letter is labeled "Attachment 1 ".

      Recommendation 2 requires Clarke County to follow their procurement policies
      when making purchases. I have attached documentation, "Attachment 2", from
      Clarke County that indicates the purchase of the Cellebrite equipment met all
      requirements. I understand that there may have been a lack of documentation on
      the part of the account manager and this will be remedied.




                                       14
Troy M. Meyer
February 19, 2013
Page 2 of 2


This grant has funds remaining, and the operation that is supported by the funding continues.
If the final determination from the grants manager is that sub-grantee Shenandoah County is
required to remedy the stated amount in Recommendation 1, provisions will be made to
accomplish this. There are no additional purchases for goods required by this grant. As such,
sole source purchases will no longer be an issue.

The staff members from the Office of Inspector General who conducted this audit were
professional, friendly, and represented the Department of Justice positively. Frank Roller,
Michael Pannone, and Carrie Fleming were available for questions, and explained the entire
process. We learned from the process, and are better prepared to manage this grant to its
conclusion.

I look forward to hearing from you. If I can be of further service, please don’t hesitate to call.




Attachments: 1)        February 15, 2013 Letter from Sheriff Timothy Carter, Shenandoah
                       County
              2)       February 15, 2013 Memorandum and Attachment from Mike Legge,
                       Clarke County Purchasing Manager


cc:      David Ash, County Administrator, Clarke County, Virginia




                                                 15
                                                                                Attachment 1





                                          15 February 2013

The Honorable,

Sheriff Anthony Roper

P.O. Box49
Berryville, VA 22611

Re: Gang Grant Audit- 201 0-DD-BX-0690

Dear Sheriff Roper,

         This Office has a full time detective/investigator assigned to the Northwest Virginia Gang
Task Force. His time is dedicated 100% to accomplish the objectives of the NWVGTF. My
Office has implemented a significant effort, including an immediate policy enhancement to
comply with OJP Financial Guidelines for timesheets. This will enable my Office and the
Grantee to provide evidence of a prospective basis to easily track gang investigative work and
related tasks, as well as track current and future grant funds.
         Furthermore, our enhancements include compliance with OJP Financial Guidelines in
that all cost activities are reflected on timesheets that show after-the-fact distribution of actual
activity of the investigator, account for the total activity for which we compensate the
investigator, coincide with the applicable pay period(s), and signed by the investigator and his
approved supervisor with firsthand knowledge of the work performed.
         Please let me know if you require any additional information regarding this matter.
Thank you.


                                              Sincerely,



                                              Timothy C. Carter
                                              Sheriff
                                              Shenandoah County




                                An Accredited Law Enforcement Agency

                                                16
                                                                           Attachment 2-1

              County of Clarke
              Joint Administrative Services- Purchasing Department



DATE: February 15, 2013

TO: Brenda Bennett

FROM: Mike Legge,
     Purchasing Manager
     Clarke County Department of Joint Administrative Services

RE: Cellebrite Purchase Order #07163

COMMENTS:

At the recommendation of an audit prepared by the USDOJ, you asked that I review a purchase
that the Clarke County Sheriff's Office made from Cellebrite USA Corporation on September 12,
2011.

In section 4.2 of the County's Procurement Policies and Procedures, the following rule
applies to the purchase of goods totaling over $800, but less than $25,000.00:

      The Account Manager shall prepare a Purchase Requisition that includes a clear
      and thorough description of the goods and a date when the goods are needed.
      The Account Manager and an Executive must sign the requisition before
      forwarding it to the Purchasing Office. The Account A1anager should also
      suggest sources where the goods/services can be procured.

      The Purchasing Qffice, upon receipt of a signed Purchase Requisition, will solicit
      a minimum a three (3) competitive written or telephonic bids. The administrative
      lead-time may take up to fifteen (15) days. It is recommended that the Account
      Manager attempt to obtain three quotes and complete a Bid/Quote Tabulation
      Form to expedite the process. The Account Manager is also encouraged to
      provide the Purchasing Qffiice with a Purchase Order number from a previous
      order if the item/service has been ordered in the past."

The audit stated that the grantee reported that this purchase was done so under sole source
authority. Although the County of Clarke received notification from the vendor that they were
the sole source and 1iotification from the Department of Homeland Security that they were
purchasing a Universal Forensic Extraction Device through a sole source purchase order, the
County decided not to declare this a sole source purchase and went a step farther and attempted
to solicit additional quotes in an effort to encourage competition and to provide other vendors
with an opportunity to provide a quote or a comparable product.

129 Ransburg Lane                                                  Telephone: [540] 955-5185
Berryville, VA 22611                                                     Fax: [540] 955-0456
                                               17
                                                                         Attachment 2-2

This purchase was not declared a sole source procurement because an attempt to seek
competition and receive other quotes was made. The County's policies regarding this purchase
were handled correctly because an effort was made by Chief Deputy Mike McWilliams to solicit
additional quotes from First Choice Group and GRRASP Inc.

I am attaching a letter signed by Chief Deputy Mike McWilliams that documents his effort to
solicit other quotes.

If you have any questions, please let me know.




Clarke County Purchasing Department                                          Page 2 of 2
                                                 18
                                                                           Attachment 2-3





9/7/11

To whom it may concern:

In the process of attempting to obtain quotes for a CelleBrite UFED, I contacted FirstChoice
Group and GRRASP Inc and both companies are unable to provide quotes.




MF McWilliams
Chief Deputy
Clarke County Sheriff’s Office




                                               19
                                                                          APPENDIX III


 OFFICE OF JUSTICE PROGRAMS RESPONSE TO THE DRAFT
                    AUDIT REPORT


                                                   U.S. Department of Justice

                                                   Office of Justice Programs

                                                 Office of Audit, Assessment, and Management



                                                Washington, D.C. 20531




March 7, 2013


MEMORANDUM TO:               Troy M. Meyer
                             Regional Audit Manager
                             Washington Regional Audit Office
                             Office of the Inspector General

                               /s/
FROM:                        Maureen A. Henneberg
                             Director

SUBJECT:                     Response to the Draft Audit Report, Audit of the Office of Justice
                             Programs, Bureau of Justice Assistance Award to the Clarke
                             County, Virginia Sheriff’s Department

This memorandum is in response to your correspondence, dated February 5, 2013, transmitting
the subject draft audit report for the Clarke County, Virginia Sheriff’s Department (Sheriff’s
Department). We consider the subject report resolved and request written acceptance of this
action from your office.

The draft audit report contains two recommendations and $30,940 in questioned costs. The
following is the Office of Justice Programs’ (OJP) analysis of the draft audit report
recommendations. For ease of review, the recommendations are restated in bold and are
followed by our response.



                                              20
1.	    We recommend that OJP remedy the $30,940 in unsupported allocations of salaries
       and fringe benefits costs.

       We agree with the recommendation. We will coordinate with the Sheriff’s Department to
       remedy the $30,940 in unsupported allocations of salaries and fringe benefits costs.

2.	    We recommend that OJP ensure that the grantee follow their procurement policies
       and include documentation of factual data that supports an account manager’s
       determination that a sole source procurement is justified.

       We agree with the recommendation. We will coordinate with the Sheriff’s Department to
       obtain a copy of procedures implemented to ensure that procurement policies are adhered
       to, and include documentation of factual data that supports an account manager’s
       determination that sole source procurement is justified.

We appreciate the opportunity to review and comment on the draft audit report. If you have any
questions or require additional information, please contact Jeffery A. Haley, Deputy Director,
Audit and Review Division, on (202) 616-2936.

cc:	   Jeffery A. Haley
       Deputy Director, Audit and Review Division
       Office of Audit, Assessment, and Management

       Tracey Trautman

       Deputy Director for Programs

       Bureau of Justice Assistance


       Amanda LoCicero

       Budget Analyst

       Bureau of Justice Assistance


       Naydine Fulton-Jones

       Division Chief

       Bureau of Justice Assistance


       Lesley Walker

       Grant Program Specialist

       Bureau of Justice Assistance


       Richard P. Theis

       Assistant Director, Audit Liaison Group

       Internal Review and Evaluation Office

       Justice Management Division


       OJP Executive Secretariat

       Control Number 20130116



                                              21
                                                            APPENDIX IV

              OFFICE OF THE INSPECTOR GENERAL

             ANALYSIS AND SUMMARY OF ACTIONS

               NECESSARY TO CLOSE THE REPORT


      The Department of Justice (DOJ) Office of the Inspector General (OIG)
provided a draft of this audit report to the Clarke County, Virginia Sheriff’s
Office (Sheriff’s Office) and the Office of Justice Programs (OJP). The
responses are incorporated respectively as Appendices II and III of this final
report. The following provides the OIG analysis of the response and
summary of actions necessary to close the report.

   1.	 Resolved. OJP concurs with our recommendation that requires the
      grantee to remedy the $30,940 in unsupported allocations of salaries
      and fringe benefits costs. OJP stated in its response that it will
      coordinate with the Sheriff’s Department to remedy the $30,940,
      which includes one reimbursement to Warren County for $10,859 and
      two reimbursements to Shenandoah County for $20,081.

      The Clarke County Sheriff’s Department stated that the questioned
      allocations involved payments to a subgrantee, Shenandoah County;
      however, the questioned allocations involve both Shenandoah and
      Warren Counties. Shenandoah contends that the allocations in
      question are appropriate, necessary, and fulfill the requirements of the
      grant. Additionally, Shenandoah County has made alterations to its
      timekeeping procedures to ensure that timesheets allow for
      investigators to appropriately allocate and record their time based on
      actual time spent on each project or grant.

      This recommendation can be closed when we have evidence that OJP
      has remedied the $30,940 of unsupported salaries and fringe benefit
      allocations.

   2.	 Resolved. OJP concurs with our recommendation that requires the
      grantee to follow Clarke County procurement policies and include
      documentation of factual data that supports an account manager’s
      determination that a sole source procurement is justified. OJP states
      in its response that it will coordinate with the Sheriff’s Department to
      obtain a copy of procedures implemented to ensure that procurement
      policies are adhered to, and include documentation of factual data that


                                      22
supports an account manager’s determination that sole source
procurement is justified.

This recommendation can be closed when OJP provides evidence that
the Sheriff’s Department has followed Clarke County sole source
procurement policies to include documentation of factual data that
supports an account manager’s determination that a sole source
procurement is justified.




                              23
